App. 1
Hon. Thomas Anthony Adams
Retired, Appellate Division, New York State Supreme
Court, 2nd Judicial Dept.
Former Chief Judge, Appellate Term, 9th & 10th
Districts
Former Administrative Judge, New York State
Supreme Court, Nassau County
Hon. John A Barone
Retired Justice
Supreme Court, State of New York, Bronx County
Andrew J. Maggio, Esq.
Past President & Chairman, Columbian Lawyers
Association of the First Judicial Department
Patricia Manzo, Esq.
Past President, Columbian Lawyers Association of
Nassau County
Past Officer, The Confederation of Columbian Lawyers
Associations
Joseph A. Maria, Esq.
Past President, Columbian Lawyers Association of the
First Judicial Department
Hon. J. Emmett Murphy
Retired Justice
Supreme Court, State of New York, 9th Judicial District
Hon. John M. Perone
Acting Justice
Supreme Court, State of New York, Westchester County

App. 2
Anthony G. Piscionere, Esq.
Member, Columbian Lawyers Association of Westchester
County
Counsel, Westchester County Firearm Owners
Association, Inc.

